                       CLOSEOUT M92-040019


The letter in this file dated June 8, 1992, to                 (the
complainant) from the Assistant Inspector G e s r a l for Oversight
will serve as the closeout memorandum for this case.
                       NATIONAL SCIENCE FOUNDATION
                             1800 G STREET. N.W.
                            WASHINGTON. D.C 20550




       OFFICE OF
   INSPECTOR GENERAL
                                JUN     8 1992
                                                         e E R T I F I E D MAIL




The ~nspectorGeneral of the National Science Foundation (NSF) gave
me your letter of ,               for response.
Your letter indicat

that other
information and that in so obtaining and using this information
failed to credit you as the initial .             Using the normal
canons of scholarship and noting that you nelther wrote, compiled,
edited nor arranged this material, we find no basis for reviewing
your complaint under NSF regulations and plan to take no action.

                                         Very truly yours,




                                         James J . Zwolenik, Ph.D.
                                         Assistant Inspector General
                                           for Oversight
